    California State and Local Educational Agencies’
   Compliance with the Gun-Free Schools Act of 1994




                                  FINAL AUDIT REPORT




                              Control Number ED-OIG/A09-A0008
                                        September 2000




Our mission is to promote the efficient                     U.S. Department of Education
and effective use of taxpayer dollars                       Office of Inspector General
in support of American education.                           Sacramento, California
                             NOTICE
 Statements that management practices need improvements, as well as other
conclusions and recommendations in this report represent the opinions of the
 Office of Inspector General. Determination of corrective action to be taken
     will be made by the appropriate Department of Education officials.

 In accordance with Freedom of Information Act (5 U.S.C. §522), reports
  issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
              therein is not subject to exemptions in the Act.
                          Table of Contents

                                                                      Page
Executive Summary ……………………...……..….…...…....…...…. 1
Audit Results ……………………...………………………….….…… 3
Finding No. 1 – California State Law May Not Require Mandatory
                Expulsions of Students Who Bring Explosives to School …… 3
               Recommendation ……………...……………………………. 5
               CDE’s Comments …………...…………………………….... 6
               OIG’s Response ………………...………………....……….. 6


Finding No. 2 – LEA’s Decisions to Modify the Expulsion Requirement
                Were Made at Lower Organizational Levels Than
                Allowed By the Gun-Free Schools Act …………….…...… 6
               Recommendation …………………………………………... 8
               CDE’s Comments ….......……...…………………………… 8
               OIG’s Response ………………...………………....……….. 8


Finding No. 3 – CDE and LEAs Made Errors When Compiling Expulsion
                Information for Gun-Free Schools Act Reports …..........… 8

               Recommendations….………...………….…...….......…..…. 10
               CDE’s Comments ...………...………….…...….......…..….. 11

Finding No. 4 – LEAs Did Not Provide CDE With School-Level Data As
                Required By the Gun-Free Schools Act ……….….……... 11
               Recommendation .……….…...………….……...….…..….. 12
               CDE’s Comments ...………...………….…...….......…..…. 12

Background ....…………………..….………...…….……...…...…… 13

Purpose, Scope and Methodology ……………….…..……..…........ 14
Statement on Management Controls ……………...….…..….…..... 17
Attachment – CDE’s Comments to the Report …….…..….…....... 18
                                Executive Summary

The California State Department of Education (CDE) and local educational agencies (LEAs)
substantially complied with the provisions of the Gun-Free Schools Act of 1994. However, we
found that CDE and the LEAs need to take steps to ensure full compliance with the Act's
requirements.

 § California State law requires mandatory expulsions for a period of at least one year for
   students found with firearms while at school or at a school activity held off school grounds.
   However, the State law may not require mandatory expulsion for students found with
   explosives. Certain explosives are considered firearms under the Gun-Free Schools Act.

 § Except for one instance involving a gun, our review at six LEAs found no evidence
   indicating that the LEAs did not comply with the California State law. However, LEAs may
   not have fully complied with the Gun-Free Schools Act since all students found with
   explosives were not expelled for at least one year.

 § California State law allows the LEA’s chief administering officer to modify the expulsion
   requirement for students on a case-by-case basis. However, we found that one of the six
   LEAs reviewed allowed school officials at lower organizational levels to make the decision
   to modify the expulsion requirement for students with disabilities.

 § The CDE submitted annual reports to the U.S. Department of Education (Department) in
   accordance with guidance provided by the Department’s Office of Elementary and
   Secondary Education (OESE). However, CDE and LEAs made errors when compiling
   expulsion information for Gun-Free Schools Act reports. Also, one LEA did not retain
   supporting documentation for its reports.

 § The LEAs did not provide CDE with school-level data as required by the Gun-Free Schools
   Act.

We recommend that the Assistant Secretary for Elementary and Secondary Education determine
whether the State law is in compliance with the Gun-Free Schools Act. If it is determined that
the State law is not in compliance, we recommend that the Assistant Secretary assist CDE in
formulating remedies to ensure that California LEAs expel students who are determined to have
brought to school any destructive device (including an explosive device) that meets the definition
of a firearm, and that the expulsion is for a period of not less than one year. We recommend that
the Assistant Secretary require that CDE ensure that the LEA cited above has policies and
procedures in place that comply with the requirement that only the chief administering officer, as
defined by CDE, is authorized to make case-by-case decisions to not expel students who bring a
firearm to school. CDE should also implement review procedures to ensure that LEA expulsion
information is accurately reflected on its Gun-Free Schools Act reports submitted to the
Department. In addition, we recommend that CDE take steps to ensure that LEAs submit


ED-OIG                      Control Number ED-OIG/A09-A0008                               Page 1
                                                .
accurate Gun-Free Schools Act reports, retain supporting documentation for their reports and
report required school-level data.

In its comments to the draft report, CDE generally concurred with the findings and described the
corrective action planned or taken. CDE’s comments are summarized in the report following
each finding and the full text of the comments is included as an attachment.




ED-OIG                      Control Number ED-OIG/A09-A0008                             Page 2
                                                .
                                       Audit Results

We concluded that CDE and the six LEAs covered by our site reviews substantially complied
with the provisions of the Gun-Free Schools Act and that the six LEAs substantially complied
with applicable State laws. However, we found that (1) the California State law may not require
mandatory expulsions for students who bring explosives to school, (2) one LEA allowed
decisions to modify the expulsion requirement to be made at lower organizational levels than
allowed by the Act, (3) CDE and the LEAs made errors when compiling expulsion information
for reports, and (4) LEAs did not provide CDE with required school-level data.

Other than incidents involving explosives and one incident involving a gun, our on-site reviews
at the six LEAs found no evidence that the LEAs had not complied with the Gun-Free Schools
Act or State law requirement to expel students for at least one year who were found with a
firearm at school or a school activity held off school grounds. Also, we found no evidence that
the LEAs had not referred to the criminal justice or juvenile delinquency system those students
who were found with a firearm.



Finding No. 1 – California State Law May Not Require Mandatory
                Expulsions of Students Who Bring Explosives to School


California State law may not require mandatory expulsions of students who bring explosives to
school. Therefore, California may not meet the State law requirements specified in the Gun-Free
Schools Act.1 Section 14601(b)(1) of the Gun-Free Schools Act states that:

         …each State receiving Federal funds under this Act [Elementary and Secondary
         Education Act] shall have in effect a State law requiring local educational
         agencies to expel from school for a period of not less than one year a student who
         is determined to have brought a weapon to a school under the jurisdiction of local
         educational agencies in that State, except that such State law shall allow the chief
         administering officer of such local educational agency to modify such expulsion
         requirement for a student on a case-by-case basis.

Section 14601(b)(4) defines the term “weapon.”

         For the purpose of this section, the term ‘weapon’ means a firearm as such term
         is defined in section 921 of [T]itle 18, United States Code [USC].


1
  We previously informed OESE of this finding in our State and Local Action Memorandum No. 00-02,
dated May 18, 2000.
ED-OIG                        Control Number ED-OIG/A09-A0008                                   Page 3
                                                  .
The definition of “firearm” contained in 18 USC §921(a)(3) includes “any destructive device.”

         The term “firearm” means (A) any weapon (including a starter gun) which will or
         is designed to or may readily be converted to expel a projectile by the action of an
         explosive; (B) the frame or receiver of any such weapon; (C) any firearm muffler
         or firearm silencer; or (D) any destructive device [emphasis added].

Title 18 USC §921(a)(4) defines “destructive device” to include certain types of explosive
devices.

California Education Code (EDC) §48915 contains the California State law covering required
expulsion actions for LEAs. The section established differing levels of required action for acts
involving “firearms” and “explosives.”

 § For acts involving firearms, EDC §48915(c) requires that principals or superintendents
   immediately suspend and recommend expulsion for students who have been found to have
   possessed, sold or otherwise furnished a firearm while at school or at a school activity held
   off school grounds. EDC §48915(d) requires that governing boards order students expelled
   for this offense. EDC §48916(a) requires that the governing boards set a review date for
   student readmissions that are one year from the expulsion date. The section allows the
   governing boards to set an earlier readmission date on a case-by-case basis.

 § For acts involving explosives, EDC §48915(a) requires that principals or superintendents
   recommend expulsion for students who have been found to have possessed any explosive
   while at school or at a school activity held off school grounds unless the principal or
   superintendent finds that expulsion is inappropriate. EDC §48915(b) states that governing
   boards may order an expulsion for this offense.

The above cited EDC sections do not define “firearm” or “explosive,” or contain references to
definitions in other sections of the State law.

Under EDC §48915 and EDC §48916, California State law allows LEAs discretion in ordering
the expulsion of students who possess explosive devices. Also, if the LEA decides to expel a
student for possessing an explosive device, California State law does not specify a minimum
length for the expulsion. Therefore, California State law may not be in compliance with Gun-
Free Schools Act requirements for students who were found to possess explosives or other
destructive devices that meet the 18 USC §921 definition of a firearm.




ED-OIG                        Control Number ED-OIG/A09-A0008                               Page 4
                                                  .
Except for one incident involving a gun,2 our review at six LEAs found no evidence indicating
that the LEAs did not comply with the California State law provision requiring expulsion for one
year of students who were found with firearms. However, LEAs may not have fully complied
with the Gun-Free Schools Act since not all students found with explosives were expelled for at
least one year.

At three of the six LEAs reviewed, school records noted disciplinary actions against students for
acts involving explosives at school. One LEA, with a single incident, expelled the student from
school for a full year. The other two LEAs, with incidents involving 26 students, either
transferred the students to another school (3 students), expelled the students for a period shorter
than one year (2 students) or suspended enforcement of the expulsion3 (21 students). District
officials informed us that the expulsions were shortened or suspended because a one-year
expulsion is not required by the California Education Code.

School records described some of the explosive devices as: a test tube filled with gunpowder, a
pipe bomb, firecrackers (M-80, M-100, and M-2000) and a dry ice bomb. School records for
another instance did not provide a description of the device, but stated that the device was
capable of causing severe injury and had been taken to the local fire department for testing.
Some or all of the explosive devices could be considered “firearms” under the definition in
18 USC §921 depending on the design of the device, intended use and the student’s handling of
the device. The information we obtained from school records was insufficient for us to make a
determination for each incident.

Recommendation

The Assistant Secretary for Elementary and Secondary Education should:

1-1.     Determine whether the State law is in compliance with the Gun-Free Schools Act. If it is
         determined that the State law is not in compliance, we recommend that the Assistant
         Secretary assist CDE in formulating remedies that ensure California LEAs expel students
         who are determined to have brought to school any destructive device (including an
         explosive device) that meets the 18 USC §921 definition of a firearm and that the
         expulsion is for a period of not less than one year.



2
  For one gun incident, school officials did not recommend the student (age 15) for expulsion. According
to a school official, the school took no expulsion action because the student was arrested, did not return to
the school and apparently did not enroll at another school since the school had not received a request for
the student's school records. The school's failure to recommend the student for expulsion violated the
Gun-Free Schools Act, California Education Code and the LEA's policy. Since the violation appears to
be an isolated instance rather than a systemic problem, we have not recommended corrective action to
address the violation.
3
 California Education Code permits a governing board to suspend its order to expel a student for up to
one calendar year. Students whose expulsion orders have been suspended are deemed to be on
probationary status. The governing board may reinstate a student's expulsion order if the student
subsequently violates any rule or regulation governing student conduct.
ED-OIG                         Control Number ED-OIG/A09-A0008                                      Page 5
                                                   .
CDE’s Comments

CDE agreed with the need for legal guidance and assistance to ensure that California State law
complies with the requirements of the Gun-Free Schools Act.

OIG’s Response

Based on our discussions with Department officials, we revised our recommendation.


Finding No. 2 – LEA’s Decisions to Modify the Expulsion Requirement
                Were Made at Lower Organizational Levels Than
                Allowed By the Gun-Free Schools Act


Three of six LEAs reported expulsions involving firearms to CDE. At one of the three LEAs,
decisions to modify the expulsion requirement for students with disabilities were made at lower
organizational levels than allowed by the Gun-Free Schools Act. These decisions were made
either by the school principal or staff in the district discipline unit. The LEA’s procedures did
not require that either the district superintendent or the district’s governing board review the
decisions. Also, during our interviews and review of school records, we found no evidence
indicating that either the superintendent or board was made aware of the firearm incidents or the
decision to modify the expulsion requirement.

Section 14601(b)(1) of the Gun-Free Schools Act specifies that the State law shall allow the
chief administering officer of the LEA to modify the expulsion requirement for a student on a
case-by-case basis. In State guidance issued on December 23, 1996, CDE informed the LEAs
that, "[i]n California, the chief administering officer of a school district is the superintendent,
acting under the direction of the governing board, so the superintendent is responsible for
carrying out the decision to modify expulsion terms." We consider the following to be
modifications of the expulsion requirement for students who were found to have had a firearm:
shortened length of the expulsion, suspended enforcement of the expulsion and decisions to not
expel the student.

California Education Code contains two sections that allow modification of the Gun-Free
Schools Act’s student expulsion requirement. EDC §48916 states that the governing board may
modify the length of the expulsion.

         For a pupil who has been expelled pursuant to subdivision (c) of Section 48915,
         the governing board shall set a date of one year from the date the expulsion
         occurred, when the pupil shall be reviewed for readmission to a school
         maintained by the district, except that the governing board may set an earlier date
         for readmission on a case-by-case basis.




ED-OIG                        Control Number ED-OIG/A09-A0008                                  Page 6
                                                  .
Under EDC §48915.5(a), the governing board is required to modify the expulsion requirement
(not expel) for students with disabilities when an individualized education program (IEP) team
determines that the students’ actions were a manifestation of their disability or the students were
not appropriately placed at the time.4

         In a matter involving a pupil with previously identified exceptional needs who is
         currently enrolled in a special education program, the governing board may
         order the pupil expelled pursuant to subdivision (b) or (d) of Section 48915 only if
         all of the following conditions are met:
             (1) An individualized education program team meeting is held….
             (2) The team determines that the misconduct was not caused by, or was not a
                  direct manifestation of, the pupil’s identified disability.
             (3) The team determines that the pupil had been appropriately placed at the
                  time the misconduct occurred.

Both OESE and the Office of Special Education Programs (OSEP) issued guidance to State
educational agencies emphasizing that the discipline of students with disabilities is to be
determined on a case-by-case basis for purposes of compliance with the Gun-Free Schools Act.5
In its “Guidance Concerning State and Local Responsibilities Under the Gun-Free Schools Act
of 1994,” OESE advised that:

         Compliance with the Gun-Free Schools Act may be achieved consistently with the
         requirements that apply to students with disabilities as long as discipline of such
         students is determined on a case-by-case basis in accordance with the disability
         laws [emphasis added].

In OSEP Memorandum 95-16, dated April 26, 1995, OSEP issued guidance to State educational
agencies on applying the Gun-Free Schools Act requirements to students with disabilities who
bring firearms to school. In the response to Question #15 of the Question and Answer section,
OSEP confirmed that only the chief administering officer is authorized to make a decision to not
expel the student.

         …[If] it is determined that the student’s behavior of bringing a firearm to school
         was a manifestation of the student’s disability, the chief administering officer
         must exercise his or her authority under the Gun-Free Schools Act to determine
         that the student may not be expelled for the behavior.




4
  This California Education Code section addresses the requirement of Section 14601(c) of the Gun-Free
Schools Act which specifies that “provisions of this section [Gun-Free Requirements] shall be construed
in a manner consistent with the Individuals with Disabilities Education Act.”
5
 OSEP is a component under the administration of the Assistant Secretary for the Office of Special
Education and Rehabilitative Services.

ED-OIG                        Control Number ED-OIG/A09-A0008                                   Page 7
                                                  .
At the one LEA, principals had the authority to make the decision to stop the expulsion process
at the school-level when an IEP team determined that the student’s behavior was a manifestation
of his or her disability or that the student was not appropriately placed at the time of the incident.
Prior to closing the case, principals had the option of forwarding the case to the district discipline
unit for review by a special education specialist.

For all instances reviewed at the LEA, the IEP team had conducted the required assessment.
However, the LEA’s practice, which allows principals to make the decision to modify the
expulsion requirement, does not comply with the requirement of the Gun-Free Schools Act,
California Education Code or guidance provided by OESE, OSEP and CDE. Also, under the
LEA’s current practice, there was no assurance that the district superintendent or governing
board was aware of all firearm incidents in the district or that they concurred with the disposition
of those incidents.

Recommendation

The Assistant Secretary for Elementary and Secondary Education should:

2-1. Require CDE to ensure the LEA cited in our finding has policies and procedures in place
     that comply with the requirement that only the chief administering officer, as defined by
     CDE, is authorized to make case-by-case decisions to not expel students who bring a
     firearm to school, including incidents involving students with disabilities.

CDE’s Comments

CDE concurred with the finding. CDE stated that it will request the LEA cited in the finding to
promptly take appropriate corrective actions. Also, CDE has added language in its instructions
to LEAs for completing the Gun-Free Schools Act Reporting Form for 1999-2000 to emphasize
that only the LEA’s chief administering officer has the authority to shorten the expulsion length,
suspend enforcement of the expulsion or not expel the student.

OIG’s Response

Based on CDE’s comments on the draft report, we revised the recommendation to apply solely to
the one LEA rather than requiring CDE to ensure that all LEAs have appropriate policies and
procedures in place that comply with the requirement.



Finding No. 3 – CDE and LEAs Made Errors When Compiling Expulsion
                Information for Gun-Free Schools Act Reports


The Gun-Free Schools Act requires that State educational agencies collect information from
LEAs concerning expulsions under the State law and report such information to the Department
on an annual basis. Both CDE and LEAs made errors when compiling expulsion information for
their reports. Also, one LEA had not retained supporting documentation of its reports and did
ED-OIG                       Control Number ED-OIG/A09-A0008                                  Page 8
                                                 .
not have written procedures necessary to replicate the supporting documentation from its
electronic database.

CDE’s Compilation of LEA-Provided Information for Statewide Report. During our review of
CDE’s compilation of expulsion information for school year 1997-98, we found that CDE had:

 § Excluded four expulsions from the statewide report due to an error in an electronic
   spreadsheet formula used to calculate data totals,
 § Increased an LEA’s reported number of expulsions by one due to its misinterpretation of
   wording on the LEA’s report, and
 § Erroneously transferred totals from its spreadsheet to the reporting form.

                                                        Per                 Per
         Data Element Description                   Spreadsheet        Reporting Form
         Shortened expulsions                           84                   319
         Shortened expulsions for students
                                                         81                   84
           without disabilities
         Referrals to alternative schools
                                                        319                   81
           or programs

The Department expressed its commitment to collecting and reporting the most accurate data
possible in a letter to CDE, dated March 29, 1999. In that letter, the Department requested
written verification of the accuracy of the expulsion information previously reported by CDE.
CDE provided the written verification, but was unaware of the above errors.

LEAs’ Compilation of Information for Reports to CDE. We reviewed the supporting
documentation for reports submitted by six LEAs for school year 1997-98. At four LEAs, we
also reviewed supporting documentation for reports submitted for school year 1998-99.

Firearm Definition - Two LEAs improperly included expulsions related to non-firearms (pellet-
gun and ammunition). Expulsions for these items should not have been included in the Gun-Free
School Act reports since the items did not meet the 18 USC §921 definition of a firearm. The
LEAs reported the non-firearm expulsions because they did not fully understand this definition.
We also found two LEAs that included expulsions involving students who had explosives.
However, the student records did not contain sufficient information for us to make a
determination as to whether the explosive devices would be considered firearms under
18 USC §921.

Timing of Expulsion – Three LEAs improperly included students in their reports who were
expelled in the subsequent school year. This occurred because the LEAs used the date of the
firearm incident rather than the expulsion date to identify the applicable reporting period.
According to CDE officials, LEAs report incidents for the California Safe Schools Assessment
based on the incident date rather than expulsion date. This difference may have lead to
confusion regarding the reporting for the Gun-Free Schools Act.




ED-OIG                      Control Number ED-OIG/A09-A0008                             Page 9
                                                .
Shortened Expulsion – One LEA failed to identify expulsions that were less than one year as
shortened expulsions. The LEA did not report the expulsions as shortened expulsions because
the incidents involved explosives and the California State law does not mandate a year’s
expulsion for incidents involving explosives. The statewide Gun-Free Schools Act report form
requires states to report the number of shortened expulsions when the expulsion term is less than
one year.

Errors in LEA Database Records – One LEA used an electronic database to track its discipline
actions. The database included fields for "board date" which showed the date of an expulsion
action by the governing board and "reason" which included codes for such devices as a firearm,
pellet gun, and replica. The LEA used these fields to extract expulsion information it reported to
CDE.

The LEA erroneously excluded reporting five expulsions involving firearms due to missing dates
from the database for one board meeting. The LEA could not explain why the board date data
were not present. The LEA also improperly included expulsions for a bb gun and a toy gun,
because the guns had erroneously been coded as firearms. The LEA explained that the "reason
code" was determined based on the initial referral from the school, and while it was later
determined that the devices were not firearms, there were no procedures in place to update the
database. LEA officials stated that they intend to implement such procedures.

LEA’s Supporting Documents for Report Submitted to CDE. One LEA was unable to provide
the original documentation supporting the reports submitted to CDE and did not have written
procedures for replication of the documentation from its database. Title 34 Code of Federal
Regulations, §80.42, requires supporting documents, statistical records and other records which
are reasonably considered as pertinent to program regulations to be maintained for three years.
LEA staff could not locate the original documentation due to personnel changes since the reports
had been submitted. For purpose of our audit, the LEA’s current staff extracted documentation
from the database using assumptions on how it may have originally been retrieved. However,
we had limited assurance that the student records being audited were for the same student
expulsions included on the LEA’s reports to CDE.

Recommendations

The Assistant Secretary for Elementary and Secondary Education should require CDE to:

3-1.     Implement review procedures to ensure that LEA expulsion information is accurately
         reflected on its statewide Gun-Free Schools Act reports submitted to the Department.

3-2.     Emphasize to LEAs the importance of submitting accurate data on their reports and issue
         guidance on applying the 18 USC §921 firearm definition and the timing of expulsions to
         be included in the reports.

3-3.     Require LEAs to retain supporting documentation for reports submitted to CDE for a
         period of three years.


ED-OIG                       Control Number ED-OIG/A09-A0008                              Page 10
                                                 .
CDE’s Comments

CDE concurred with the recommendations. CDE stated that it has developed internal review
procedures for the statewide report. Also, CDE has revised its Gun-Free Schools Act Reporting
Form and the instructions used by LEAs to clarify that certain weapons and devices are not
reportable under the Gun-Free Schools Act and to emphasize the importance of submitting
accurate information. CDE stated that it will also remind LEAs that supporting documentation
must be retained for the required period.


Finding No. 4 – LEAs Did Not Provide CDE With School-Level Data As
                Required By the Gun-Free Schools Act


LEAs provided CDE with district totals on the number of students expelled who brought a
firearm to school by grade level and firearm category (handgun, shotgun/rifle, or other), as well
as data on shortened expulsions and referrals to alternative schools or programs. However, the
LEAs did not provide CDE with the individual school-level information required in the Gun-
Free Schools Act.

Section 14601(d)(2) of the Gun-Free Schools Act requires local educational agencies requesting
funding under the Elementary and Secondary Education Act of 1965 (ESEA) to provide to the
State the following information:

         …[D]escription of the circumstances surrounding any expulsions imposed under
         the State law..., including–
                 (A) the name of the school concerned;
                 (B) the number of students expelled from such school; and
                 (C) the type of weapons concerned.

LEAs did not provide the information specified in §14601(d)(2) because the Gun-Free Schools
Act Reporting Form used by LEAs to report expulsion data to CDE did not specifically request
the information. The CDE-developed form was similar to the statewide Gun-Free Schools Act
report form provided by the Department. According to State officials, CDE did not include
space for the individual school-level data on its LEA reporting form because the Department did
not require State educational agencies to include the information on statewide Gun-Free Schools
Act reports.




ED-OIG                      Control Number ED-OIG/A09-A0008                              Page 11
                                                .
Recommendation

The Assistant Secretary for Elementary and Secondary Education should:

4-1.     Require that CDE inform the LEAs of the requirement to provide CDE with the
         individual school-level information listed in the Gun-Free Schools Act. To facilitate the
         reporting of this information, CDE should consider expanding the Gun-Free Schools Act
         Reporting Form provided to LEAs. The form should include the name of the school(s),
         the number of students expelled from such school(s), and the type of weapons involved at
         the school(s).

CDE’s Comments

CDE concurred with the recommendation. CDE has expanded the Gun-Free Schools Act
Reporting Form used by LEAs to include space to provide the required school-level information.




ED-OIG                       Control Number ED-OIG/A09-A0008                              Page 12
                                                 .
                                       Background

The Gun-Free Schools Act of 1994 (Title 20 U.S. Code Sections 8921, 8922 and 8923) is part of
the Improving America’s Schools Act of 1994. The Gun-Free Schools Act requires that each
State receiving ESEA funds shall have in effect a State law requiring LEAs to expel from school
for not less than one year a student who is determined to have brought a weapon to school. Such
State law shall also allow the LEA’s chief administering officer to modify an expulsion
requirement on a case-by-case basis.

States are also required by the Gun-Free Schools Act to report to the Department annually on the
number of students expelled for possessing a weapon under State law. The Act considers a
weapon to be a firearm as defined in 18 USC § 921, which includes weapons that expel a
projectile, such as a gun, rifle, or shotgun, and some explosive devices. The Act does not require
LEAs to expel students for the possession of weapons that do not meet its firearm definition,
such as bb guns, pellet guns and ammunition. States or LEAs may choose to take such
disciplinary action against students found in possession of these weapons, but the expulsions
should not be reported to the Department for purpose of the Gun-Free Schools Act.

The Act requires that each LEA receiving ESEA funds provide its State educational agency with
an assurance of its compliance with State law. The Act also requires that LEAs adopt a policy
requiring referral to the criminal justice or juvenile delinquency system of any student who
brings a weapon to school. Also, LEAs must provide information on expulsions imposed under
State law.

CDE is the State agency responsible for administering the ESEA funds in California. The
Department awarded $1,077,812,867 of ESEA funds to CDE for Federal fiscal year 1997-98.
For the 1997-98 school year, 153 of California’s 1,049 LEAs reported having expelled students
for having firearms at school or at a school activity held off school ground. The 153 LEAs
reported a total of 382 such expulsions for the school year.




ED-OIG                      Control Number ED-OIG/A09-A0008                               Page 13
                                                .
                       Purpose, Scope and Methodology

The primary objective of the audit was to determine if CDE and LEAs were in compliance with
the Gun-Free Schools Act. The sub-objectives of the audit were to determine whether
(1) students who brought a weapon to school were expelled or if "case-by-case" exceptions were
made by the appropriate LEA officials and (2) LEAs’ policies were in compliance with State
laws and the Gun-Free Schools Act. California was one of seven States selected for a multi-
State review of compliance with the Gun-Free Schools Act.

To accomplish the objectives, we reviewed applicable California State laws and interviewed
CDE officials and staff responsible for preparing the statewide Gun-Free Schools Act reports.
We also evaluated CDE’s procedures for ensuring that LEAs complied with the State law and the
Gun-Free Schools Act.

During the 1997-98 school year, the State of California had 1,049 LEAs that were required to
report expulsion data. To select the LEAs covered by our review, we grouped the LEAs by
student population size. Los Angeles Unified was selected based solely on the size of its student
population. The other eleven LEAs were randomly selected from three groups with student
populations over 500 students. From these twelve LEAs, we judgmentally selected six LEAs
(two from each population group) for our site visits. The following table shows the number of
LEAs in each selection group:

       Student        Number            Reviewed Policies and
      Population        of              Gun-Free Schools Act               Conducted Site Visits6
                       LEAs                 Reporting Form
                                 Los Angeles Unified                     Los Angeles Unified
        Large -         34       Santa Ana Unified                       Santa Ana Unified
    25,000 and over              San Jose Unified
                                 Poway Unified
                                 El Rancho Unified                       El Rancho Unified
       Medium -        189       Atascadero Unified                      Atascadero Unified
    6,000 to 24,999              Redwood City Elementary
                                 Lennox Elementary
                                 Palermo Union                           Palermo Union
       Small -         498       Hughson Union                           Hughson Union
     501 to 5,999                Gold Trail Union
                                 Shasta County Office of Education



6
  Los Angeles, Santa Ana, and El Rancho were selected because these LEAs had the largest student
populations within their groups and had at least four high schools and middle schools. Atascadero was
selected because it had high schools and middle schools. Palermo and Hughson were selected because
these LEAs had the largest student populations within their group.
ED-OIG                         Control Number ED-OIG/A09-A0008                               Page 14
                                                   .
For the group of 12 LEAs, we reviewed the LEAs’ policies requiring one-year expulsion and law
enforcement referral. For the group of six LEAs, we conducted site visits to determine whether
the LEAs complied with the requirements of the Gun-Free Schools Act and the State law. We
interviewed district officials to assess their awareness of the Gun-Free Schools Act, reviewed the
expulsion policies and gained an understanding of the LEAs’ expulsion and data reporting
procedures. We visited 21 schools (9 high schools, 8 middle schools, and 4 elementary schools),
where we interviewed 188 people, consisting of:

    §   44 school administrators,
    §   58 teachers,
    §   26 guidance counselors/psychologists,
    §   22 school security staff, including 16 officers,
    §   32 parents, including 25 representatives of school parent organizations, and
    §   6 custodians.

We interviewed a district-level teachers’ union representative at all six LEAs. Additionally, for
five of the six LEAs, we interviewed ten local law enforcement officials and reviewed their
firearm incident reports when such records were available. At the Los Angeles Unified School
District, we interviewed the district school police rather than the several city police and county
sheriff's departments having jurisdiction in the district. For the three LEAs that reported
expulsions for school year 1997-98, we reviewed all supporting documentation, including
student discipline files and electronic database records, to assess the accuracy of reporting.

To achieve our audit objectives, we relied on information contained in a CDE database of
LEA-reported expulsion information for the 1997-98 school year.7 To assess the reliability of
the database, we (1) traced the information in the database for the 12 selected LEAs to the
LEAs' hardcopy reports and (2) recalculated the numeric field totals. Other than the errors noted
in Finding No. 3, nothing came to our attention as a result of our tests that caused us to doubt that
the database reflected the expulsion information reported by the LEAs.

For our review at the Los Angeles Unified School District, we relied on a report generated from
the LEA's computerized database used to track discipline actions. The report consisted of a list
of discipline actions for incidents involving firearms, bb guns, pellet guns, replica guns and
explosives that occurred during school years 1997-98 and 1998-99. Our assessment of the
report's reliability was limited to (1) comparing the number of discipline actions listed on the
report with the expulsion information that the LEA reported to CDE and (2) confirming the
report's information with information in student discipline files for all school year 1997-98
firearm and explosive incidents and for those school year 1998-99 incidents where we identified
a risk that the information may not have been properly reported. Other than the errors noted in
Finding No. 3, nothing came to our attention as a result of our tests that caused us to doubt that
the report reflected discipline actions that occurred for the two years.


7
  Originally, CDE recorded the expulsion information reported by the LEAs for the 1997-98 school year
in an electronic spreadsheet. After preparing its Gun-Free Schools Report, CDE transferred the
information to the database. The original spreadsheet contained the formula error reported in Finding
No. 3.
ED-OIG                           Control Number ED-OIG/A09-A0008                             Page 15
                                                     .
Our audit work covered policies, procedures and reports for the 1997-98 school year. At the
Los Angeles, Santa Ana, El Rancho and Hughson school districts, we expanded our review, as
necessary, to include procedures and reports for the 1998-99 school year. Fieldwork was
conducted from February to May 2000. Our audit was performed in accordance with generally
accepted government auditing standards appropriate to the scope of the review described above.




ED-OIG                     Control Number ED-OIG/A09-A0008                            Page 16
                                               .
                    Statement on Management Controls

As part of our review, we assessed the system of management controls, policies, procedures and
practices applicable to CDE’s and the selected LEAs’ compliance with the Gun-Free Schools
Act. Our assessment was performed to determine the nature, extent and timing of our
substantive tests to accomplish the audit objectives.

For the purpose of this report, we categorized the significant controls as follows:
 § State data collection and reporting
 § LEA data collection and reporting
 § LEA discipline and law enforcement referral procedures

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed significant management control weaknesses, which
adversely affected CDE’s ability to report accurate data to the Department and the selected
LEAs’ ability to comply with the Gun-Free Schools Act. These weaknesses included allowing
decisions to modify expulsions to be made at lower organizational levels than allowed by the
Gun-Free Schools Act, reporting errors and lack of supporting documentation. These
weaknesses and their impacts are discussed in the Audit Results section of this report.




ED-OIG                       Control Number ED-OIG/A09-A0008                          Page 17
                                                 .
                      Attachment

         CDE’s Comments to the Report




ED-OIG     Control Number ED-OIG/A09-A0008   Page 18
                               .
                           REPORT DISTRIBUTION LIST


                                                             No. of
Auditee                                                      Copies
Ms. Delaine Eastin                                             1
State Superintendent of Public Instruction
 and Director of Education
California Department of Education
721 Capitol Mall
Sacramento, CA 95814

Action Official
Mr. Michael Cohen                                              1
Assistant Secretary for Elementary and Secondary Education
U.S. Department of Education

Other ED Offices
Mr. Kenneth Warlick                                            1
Director, Office of Special Education Programs

Mr. William Modzeleski                                         1
Director, Safe and Drug Free Schools Program

Ms. Deborah Rudy                                               1
Group Leader, Safe and Drug Free Schools Program

Mr. Charles Miller                                             1
Supervisor, Post Audit Group, OCFO

Mr. Alex Wohl                                                  1
Director, Public Affairs, OS

Office of Inspector General (electronically)
Inspector General                                               1
Assistant Inspector General for Audit                           1
Assistant Inspector General for Investigations                  1
Assistant Inspector General for Analysis and Inspections        1
Regional Inspectors General for Audit                        1 each
Director, State and Local Advisory and Assistance Team          1
Director, Non-Federal Audit Team                                1
